DOCKET NUMBER

 

IN THE UNITED STATES SUPREME COURT
EEE REE EES OL, SERS LE PT EES SK PS PE IT IL
UNITED STATES OF AMERICA

Plaintiff/Respondent

VS.
DUSTIN JOHNSON

Defendant/Petitioner

 

PROOF OF SERVICE

 

, Christian Lanier, appointed counsel for the Petitioner, DUSTIN JOHNSON, do
Lu or declare that on this date, August 5, 2020, as required by Supreme Court Rule
29, I have served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA
PAUPERIS and PETITION FOR A WRIT OF CERTIORARI on each party to the above
proceeding or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed to each
of them and with first-class postage prepaid, or by delivery to a third-party commercial carrier for

delivery within 3 calendar days.

Page -1-
The names and addresses of those served are as follows:

Ms. Terra Bay

US Department of Justice (Chattanooga USAO)
Office of U S Attorney

1110 Market Street

Suite 515

Chattanooga, TN 37402

Mr. Brian Samuelson
Office of the U.S. Attorney
800 Market Street

Suite 211

Knoxville, TN 37902

Mr. Noel Francisco

Solicitor General of the United States
Office of the Solicitor General

950 Pennsylvania Ave., NW
Washington, D.C. 20530-0001

Mr. Dustin Johnson, # 53198-074
FMC Lexington

Federal Medical Center

P.O. Box 14500

Lexington, KY 40512

I declare under penalty of perjury that the foregoing is true and correct. Executed on
August 5, 2020.

Respectfully submitted,

Chris

Attorney For Petitioner, BPR # 4670
Dustin Johnson

Suite 412, 2158 Northgate Park Lane
Chattanooga, TN 37415

Telephone 423-756-1015

Fax 423-756-1208

Lanierlaw@comcast.net

Page -2-
